            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
     ADMINISTRATION’S REGIONAL
       OFFICE PROCEDURES FOR
    ADDRESSING EMPLOYEE-RELATED
      ALLEGATIONS IN REGION VIII

  June 2004            06-04-14075




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   June 22, 2004                                                              Refer To:

To:     James Everett
        Regional Commissioner
         Denver

From:   Assistant Inspector General
         for Audit

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region VIII (A-06-04-14075)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures for addressing employee-related allegations, determining
        how well SSA complied with these policies and procedures, and determining whether
        SSA referred all employee-related allegations warranting further investigation to the
        Office of the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers and employee conduct. Some examples of employee-related
        allegations include time and attendance, service issues, and the theft of Government
        property. SSA receives allegations from employees, the public, and the OIG.
        Allegations concerning SSA employees are significant because of the potential
        monetary losses to SSA’s programs and the corresponding negative public impact.

        Office of Management and Budget (OMB) Circular A-123, Management Accountability
        and Control defines management controls, including organization, policies, and
        procedures, as “…tools to help program and financial managers achieve results and
        safeguard the integrity of their programs.”1 Also, management controls are the


        1
            OMB Circular No. A-123, Revised June 21, 1995, Attachment I.
Page 2 – James Everett


organization’s, policies, and procedures used to ensure that programs and resources
are protected from waste, fraud, and mismanagement.2

SSA has management controls in place with respect to the development and resolution
of employee related allegations. To determine the validity of allegations, SSA is
required to obtain sufficient evidence to support or remove suspicion that criminal
violations may have been committed.3 SSA’s policy states,

      Prior to referral to the Office of the Inspector General, Office of Investigations
      Field Division, each potential violation and allegation must be developed by the
      field office, processing center, or other SSA office to the point where enough
      evidence has been secured to either remove suspicion or substantiate the
      violation.4

In the Denver Region, the Office of the Regional Commissioner (ORC) and the Center
for Security and Integrity (CSI)5 review employee conduct and program-related
allegations. The ORC reviews all allegations that do not appear to involve fraud.
CSI reviews all allegations that appear to involve fraud or employee misconduct that
may result in an adverse action. CSI is responsible for supporting field office managers
in developing potential fraud issues by using computer system analysis and providing
other technical support. Employee allegations, which have the potential to be criminal
violations, must be referred to the OIG for appropriate action.6 Cases involving
employee misconduct that do not have the potential to be criminal violations are
referred to the Labor and Employee Relations (LER) staff for adverse actions. The
allegation referral workflow is illustrated at Appendix C.

In Fiscal Years (FY) 2001 and 2002, OIG referred 11 employee-related allegations to
SSA’s Denver Region for action. Ten of these were provided to the ORC for review and
action and one to CSI. In addition, the Denver Region received nine employee-related
allegations from sources other than the OIG.




2
    OMB Circular No. A-123, Revised June 21, 1995, Section 2.
3
    Program Operations Manual System (POMS), GN 04110.010 A.
4
    POMS, GN 04110.010 B.
5
  The CSI in Region VIII is a component of Management and Operations Support (MOS) and reports to
the Assistant Regional Commissioner for MOS.
6
    POMS, GN 04112.005 B.
Page 3 – James Everett


RESULTS OF REVIEW
The Denver Region’s ORC and LER appropriately referred all cases with potential
criminal violations to the OIG that warranted further investigation and maintained
documentation to support development of allegations received from the OIG and other
sources. However, we were unable to assess the adequacy of CSI’s compliance with
SSA policy because CSI did not maintain documentation for allegations received. Also,
the ORC’s and CSI’s tracking process for allegations received needed improvement.

CASE DEVELOPMENT DOCUMENTATION

ORC’s documentation for employee-related allegations received from the OIG and other
sources was adequate; however, CSI did not maintain documentation for allegations
received from any source except for the one case referred by OIG. Consequently, for
employee related allegations, CSI could not demonstrate that it complied with SSA
policies and procedures requiring that sufficient evidence be obtained to support or
remove suspicion that a criminal violation may have occurred.

According to CSI staff, if allegations were substantiated, they forwarded case
documents to the OIG if it involved a potential criminal violation. For substantiated
cases involving non-criminal violations, CSI forwarded the documentation to field office
managers who in turn contacted LER for appropriate administrative action. For
allegations that were not substantiated, CSI said they shredded the documentation.
CSI added that the OIG and LER staff maintained the official files. CSI, however, did
not keep a record of the cases it had forwarded to the OIG or to field office managers.

Because CSI shredded files for allegations it considered unsubstantiated and did not
maintain documentation to identify which cases it may have forwarded to the OIG or to
field office managers, we could not review the adequacy of CSI’s documentation or
verify that CSI actually complied with SSA policy.

TRACKING ALLEGATIONS RECEIVED

The ORC’s control log for tracking cases omitted 3 of 10 referrals it received from the
OIG. Two referrals were not tracked because the allegation involved a manager and
such cases are directly sent to an area director for development. The ORC was unable
to explain why the third allegation was not on the control log. We noted that the ORC
did not enter allegations in its log immediately upon receipt.

CSI was responsible for one allegation received from the OIG; however, CSI did not
have a process for tracking allegations received from any source. According to CSI
personnel, they were not required to control allegations because the Agency did not
have a “system of records” for allegations and that to create such a system would be
subject to approval by SSA’s Central Office. CSI management added that it did not
want to establish a written document or log of incoming allegations.
Page 4 – James Everett


Without a system for tracking allegations received, there is no assurance that CSI is
investigating the allegations to remove suspicion or substantiate the violation. Further,
there is an increased risk that allegations with potential criminal violations are not being
referred to the OIG. CSI received one case from the OIG during the 2-year period of
FYs 2001 and 2002. This case was left pending for 279 days before CSI took action to
resolve it. It discovered the allegation when a staff member was in the process of
cleaning out archived emails during FY 2003.

CONCLUSION AND RECOMMENDATIONS

The Denver Region’s ORC and LER appropriately referred all cases with potential
criminal violations to the OIG that warranted further investigation and maintained
documentation to support development of allegations received from the OIG and other
sources. The ORC’s tracking of allegations received needs improvement since it was
unable to explain why one case was omitted from the control log and it did not
immediately enter allegations in its control log. The CSI component did not have
adequate management controls to ensure it complied with SSA policy for documenting
development of evidence, tracking allegations received, and referring potential criminal
cases to the OIG. Without adequate management controls, the Denver Region’s overall
effectiveness in guarding against waste, fraud, and mismanagement is diminished.

Accordingly, we recommend SSA’s Denver Regional Office ensure:

1. CSI maintain documentation to support actions taken on allegations received.

2. ORC improve its tracking process by entering allegations in the control log
   immediately upon receipt.

3. CSI establish a tracking process to account for allegations received from the OIG
   and from other sources.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.




                                           S
                                           Steven L. Schaeffer
                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Allegation Referral Workflow

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                 Appendix A
Acronyms
CSI        Center for Security and Integrity
FY         Fiscal Year
LER        Labor and Employee Relations
MOS        Management and Operations Support
OIG        Office of the Inspector General
OMB        Office of Management and Budget
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
SSA        Social Security Administration
                                                                       Appendix B
Scope and Methodology
We limited our review to Fiscal Years (FY) 2001 and 2002. This included 11 referrals
from the Office of the Inspector General (OIG), 9 employee-related allegations from
sources other than the OIG, and 4 potential criminal violation cases identified from the
list of adverse actions processed by Labor and Employee Relations (LER) staff.

To accomplish our objectives, we:

•   Reviewed the following criteria:

    o The Privacy Act of 1974 (5 United States Code § 552a),
    o Office of Management and Budget Circular A-123, Management Accountability
      and Control,
    o Program Operations Manual System,
    o the Social Security Administration’s (SSA) Administrative Instructions Manual
      System,
    o Annual Personnel Reminders, and
    o Standards of Ethical Conduct for Employees of the Executive Branch.

•   Obtained the database of allegations processed by the OIG during FYs 2001 and
    2002 and identified those listed as employee-related.

•   Interviewed officials within the Office of the Regional Commissioner (ORC), Center
    for Security and Integrity, and LER in Denver, Colorado.

•   Reviewed ORC’s control log to identify employee-related allegations from sources
    other than the OIG.

•   Reviewed ORC documentation for the development of evidence related to
    allegations received from the OIG and other sources.

•   Reviewed the 20 adverse actions processed by the LER staff to identify potential
    employee-related allegations.

We performed field work at the SSA Regional Office in Denver, Colorado, and the OIG
office in Dallas, Texas from November 2003 through February 2004. We determined
that the computerized data used were sufficiently reliable to meet our audit objectives.
The entity reviewed was the Denver Regional Office under the Deputy Commissioner
for Operations. We conducted our review in accordance with generally accepted
government auditing standards.
                                                                                                          Appendix C
  Allegation Referral Workflow
                                        DENVER REGIONAL OFFICE

                                Allegation Referrals from the Office of the Inspector General (OIG)


  Office of the Regional
      Commissioner

Customer Service Related
      Allegations


Reviews case, determines
      whether further                    Center for Security
investigation is warranted                 and Integrity
and responds back to OIG
  Allegation Management                   Fraud Allegations
      Division (AMD).



                                    Reviews case and responds
                                     back to AMD. Close case if
                                   allegation is unsubstantiated.
                                    If allegation is substantiated,
                                       refers potential criminal
                                    activity to OIG and employee
                                   misconduct to the appropriate
                                                manager.
                                                                                                         Labor and Employee
                                                                        Employee Misconduct:                  Relations
                                                                         Appropriate Manager
                                                                                                      Serve as Technical Advisors
                                                                                                         to Regional Managers.




                                            Allegations from Sources Other than OIG




   Office of the Regional
       Commissioner




  Reviews case, determines
whether further investigation            Center for Security
 is warranted and responds                  and Integrity
     back to complainant.



                                    Reviews case: Close case if
                                   allegation is unsubstantiated.
                                    If allegation is substantiated,
                                       refers potential criminal
                                    activity to OIG and employee
                                           misconduct to the
                                         appropriate manager.
                                                                                                         Labor and Employee
                                                                                                              Relations
                                                                        Employee Misconduct:
                                                                         Appropriate Manager
                                                                                                      Serve as Technical Advisors
                                                                                                         to Regional Managers.
                  Appendix D
Agency Comments
ICN: 33321-24-1172

OIG DRAFT REPORT, "THE SSA'S REGIONAL OFFICE PROCEDURES FOR ADDRESSING
EMPLOYEE-RELATED
                  ALLEGATIONS IN REGION VII" (A-06-04-14075) AUDIT NO. 22004015

Mr. Schaeffer,

Please see the following DCO comments on the above named report.

Maurice Norwood
Audit Liaison
For Operations

 We have carefully reviewed the OIG draft report, the SSA’s Regional Office Procedures
for Addressing Employee-Related Allegations in Region VIII, (A-06-04-14075) Audit No.
22004015. We appreciated the review of our procedures and have taken steps to
tighten our control over these allegations. We have the following comments regarding
the report.

TRACKING ALLEGATIONS RECEIVED

We agree that three cases were not placed on the electronic tracking system, and that
for one case there was no apparent explanation. Regarding the two complaints about
managers, the Region’s policy during the timeframe reviewed was to have the
Executive Officer manually track complaints about managers because of the
accessibility of the electronic system. These cases were adequately tracked and the
results of the investigation forwarded to the responsible OIG unit. However, this policy
has since been changed and all cases are placed on the electronic control system when
received.

We also agree with the findings that CSI did not have a formal process to control and
document the results for the one allegation received in FY 2001 and 2002 from OIG.
Our unstated policy was that allegations were to be treated as that – allegations. No
documents/records were kept if the allegation was found to be unsubstantiated. No
new system of record was to be established for these. For those cases where there
was sufficient evidence for further investigation or prosecution, CSI’s policy was to rely
on the file maintained by either OIG or the Labor and Employee Relations staff as the
official file.

CSI has now established a system that will track and control all allegations received. In
addition, official files will be established for each future allegation regardless of the
outcome. Documentation will be maintained in accordance with established agency
guidelines.

We appreciate the professional manner in which this audit was conducted. If you have
any questions, please contact Don Ketcham, Executive Officer, at (303)844-2388.
                                                                       Appendix E
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

   Ronald Gunia, Audit Manager, (214) 767-6620

Acknowledgments
In addition to those named above:

   Lela Cartwright, Auditor-in-Charge

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-04-14075.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S.
Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and
Human Services, Education and Related Agencies, Committee on Appropriations,
U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
